STCU Rewards & Premier Rewards World
Mastercard® Credit Card Agreement
This Credit Card Agreement (Agreement) and the Account Disclosures
accompanying this Agreement will govern your STCU Rewards and
STCU Premier Rewards World Mastercard Credit Card and account
issued by Spokane Teachers Credit Union (“STCU”). The terms and
conditions of this Agreement will apply the same to both the STCU
Rewards and STCU Premier Rewards programs except as specifically
provided.
In this Agreement the words “you,” “your,” “yours”, “applicant,” and
“Borrowers” mean any person who signs the application for this
Account, any joint obligor, guarantor, authorized user, or the person
whose name is embossed on the Card. The words “we,” “us,” “our,”
and “Credit Union” mean Spokane Teachers Credit Union. The word
“Card” means any one or more credit cards issued under this Account.
If you sign an application for this Account or sign or use any Card
or PlN, or allow others to use the Card or PlN, you and they will
have accepted this Agreement just as if you and they signed it,
and you and they, jointly and severally, will be bound by the
following terms and conditions which govern this Account.
1. YOU PROMISE TO PAY. You promise to pay us all amounts, plus
any Interest Charges, which arise from use of the Card or Account by
you or any other person, and to be jointly and severally liable with such
a person, unless such other person does not have actual, implied, or
apparent authority for such use, and you received no benefit from the
use. You promise to pay us either by direct payment or by automatic
transfers from your accounts.
2. PURCHASES, CASH AND OVERDRAFT ADVANCES. You must
sign the Card to use it. Once you have signed the Card, you can use it
to buy or lease goods, services, or insurance wherever the Card is
honored, up to the full amount of your Credit Line. You may use your
Account to get cash advances from us. You may also use your Card to
get a cash advance at ATMs, our branch offices, and at participating
financial institutions. In addition, you may obtain cash advances by
overdrawing your account. Loan overdraft transfers will be made in the
amount necessary to cover each overdraft. You authorize us to charge
your account and deposit such funds to your account. You understand
that you will be liable for overdraft advances accessed by any
authorized person on your checking account. If we approve, you may
obtain advances under your account by writing pre-printed
convenience checks that we supply to you. Your use of convenience
checks will be shown as purchase advances on your monthly
statement. We may not honor your promotional check if: your check is
postdated; payment of promotional check would exceed your credit
limit; a promotional check is signed by a person without authorized
access to your account; the amount of the promotional check is less
than the minimum required amount; your account has been terminated
or suspended or any promotional checks have been reported lost or
stolen. You may stop payment on a promotional check if you provide
us with the exact information describing the check and providing us
with adequate notice to act on the stop payment instruction. If you give
us incorrect information, we will not be responsible for failing to stop
payment of the promotional check and you will be responsible for
repayment of the amount of the check. You understand there may be a
charge for each stop payment order requested and any promotional
check returned. Our liability for wrongful dishonor is limited to your
actual damages; however, a dishonor for reasons stated above is not a
wrongful dishonor.
3. CREDIT LINE. If your application is approved by us, this Agreement
will constitute a revolving line of credit for an amount which will be the
Credit Line under your Account. We will advise you of the amount of
your Credit Line. That amount will be the maximum amount you may
have outstanding at any one time. We retain the right to increase or
decrease your Credit Line at any time. Any increase or reduction in the
amount of your Credit Line will be shown on your monthly statement or
by separate notice together with any changes in the applicable
Minimum Monthly Payments. Your eligibility for this Credit Line is
© 2015 STCU / Farleigh Wada Witt

determined by our loan policy and may be terminated at our sole
discretion, without demand or notice. You may close your Credit Line
at any time by notifying us in writing and returning all Cards cut in half.
If you terminate this Agreement or if we terminate or suspend your
credit privileges, the provisions of this Agreement and your liability
hereunder shall otherwise remain in full force and effect until you have
paid us all sums due us under this Agreement and returned all Cards.
4. MONTHLY PAYMENT. We will mail you a statement every month if
your Account has a balance. You agree that you will pay each month
not less than the minimum monthly payment on or before the
scheduled monthly due date. The minimum monthly payment will be
2.0% of your outstanding balance (“New Balance”) or $25.00,
whichever is greater. If your outstanding balance is $25.00 or less,
you agree to pay the balance in full. You may pay in full for all your
purchases and cash advances each month, or you may repay in
monthly installments. We can accept late payments or partial
payments, or checks, drafts or money orders marked “payment in full”
without prejudice to our rights under this Agreement, which are hereby
explicitly reserved. A credit posting from a merchant or reversal of
fees do not constitute a minimum payment. The minimum monthly
payment may be allocated at STCU’s discretion to pay off lower rate
balances, such as promotional offers, before higher rate balances,
such as cash advances or purchases. Payments in excess of the
minimum monthly payment will be allocated first to higher rate
balances, as applicable. From time to time, we may allow you to skip
your minimum monthly payment due. If you choose to skip that
payment, Interest Charges will continue to accrue in accordance with
this Agreement. Payments received at: STCU, PO Box 37035,
Boone, IA 50037-0035 at or before 5:00 PM Central Time on any
business day will be credited to your Account as of that date; payments
received by mail at that address after 5:00 PM Central Time, on a
weekend or federal holiday will be posted to your Account as of the
next business day. Payment crediting to your Account may be delayed
up to five days if your payment is received by mail at any other address
or not accompanied by the remittance portion of your Account
statement.
5. SECURITY INTEREST/PLEDGE OF SHARES. To secure your
Account, you grant us a purchase money security interest under the
Uniform Commercial Code in any goods you purchase through your
Account. If you default, we will have the right to recover any of these
goods which have not been paid for through application of your
payments. You agree Collateral securing other consumer loans with
STCU (except loans secured by real property) will also secure this
Account. You also pledge all of your present and future shares and any
earnings thereon as security for obligations under your account. You
understand that if you default on your Account we may apply all that is
pledged to your Account (IRA and Keogh accounts are excluded from
the Pledge of Shares).
6. MONTHLY STATEMENTS. Each month, we will send you a
statement showing new purchases, cash advances, balance transfers,
payments, and credits made to your Account during the billing cycle,
your Previous Balance, your “Total New Balance,” any Interest
Charges, and any other charges. Your statement also will identify the
remaining credit limit available and the Minimum Monthly Payment you
must make for that billing period and the date it is due. You agree to
retain for statement verification copies of transaction slips resulting
from each purchase, each advance, and other transactions on your
Account. Unless you notify us of a billing error as described below, you
accept your monthly statement as an accurate statement of your
Account with us.
7. INTEREST CHARGES. The total outstanding balance of purchases,
balance transfers and cash advances in the Account on the closing
date of a billing cycle, including any Interest Charges will be shown on
the Monthly Statement for that billing cycle as the “New Balance.”
(a) Cash/Overdraft Advances. An Interest Charge will be imposed
on cash and overdraft advances from the advance posted to your
account to the date paid. There is no time period within which to pay to
avoid a periodic Interest Charge on cash and overdraft advances. In
addition there is a cash advance fee (Interest Charge) of 3% of the
amount of each advance ($5 minimum).
MC1002 031121

(b) Balance Transfers. An Interest Charge will be imposed on the
portion of balance transfers included in the New Balance that remains
unpaid within 23 days after the closing date. This “grace period” allows
you to avoid an Interest Charge on balance transfers for a billing
cycle. However, if you do not pay the New Balance for balance
transfers within the grace period, your Interest Charge will accrue on
any unpaid balance transfer transactions from the date of balance
transfer. In addition there is a balance transfer fee (Interest Charge) of
3% of the amount of each advance ($5 minimum).
(c) Purchases. An Interest Charge will be imposed on the portion of
purchases included in the New Balance that remains unpaid within 23
days after the closing date. This “grace period” allows you to avoid an
Interest Charge on purchases for a billing cycle. However, if you do
not pay the New Balance for purchases within the grace period, your
Interest Charge will accrue on any unpaid purchase transactions from
the date of purchase.
8. CALCULATING INTEREST CHARGES.

Prime Rate plus a margin of 12.24% to 20.24%.
The current Interest Rate that will apply to your Account will be shown
on a separate disclosure at account opening.
The Credit Union may offer introductory and promotional Annual
Percentage Rates from time to time. At the end of any introductory or
promotional period, the standard Annual Percentage Rate applicable to
your account will apply. The Annual Percentage Rate applicable to
your account will be disclosed to you with your Card and shown on
each monthly statement. The “Total Interest Charge” shown on your
monthly statement consists of the periodic Interest Charge on
purchases, the periodic Interest Charge on cash advances, and the
periodic Interest Charge on balance transfers.
9. Fees and Charges. We may impose fees and charges on your
Account as set forth below. STCU reserves the right to assess other
fees in the future. You will be notified of any new fees as required by
law.

(a) Average Daily Balance. The Interest Charge imposed on
purchases, balance transfers and cash advances with respect to a
Billing Cycle will be determined by multiplying the Average Daily
Balance of purchases, balance transfers and cash advances by a Daily
Periodic Rate. The Average Daily Balance for purchases, balance
transfers and cash advances are calculated separately. We take the
beginning balance of cash advances, balance transfers or purchases
in your account each day then, in the sequence in which the amounts
post to your account add any new cash advances, balance transfers
and purchases (whichever are applicable) and subtract any payments
or credits (and unpaid Interest Charges and late charges). This gives
us the Daily Balance for that day. Then we add up all the Daily
Balances of cash advances, balance transfers, and purchases for the
billing cycle and divide the totals by the number of days in the billing
cycle. This gives us the “Average Daily Balances” for purchases,
balance transfers and cash advances. Interest Charges start to
accrue on cash advances, balance transfers and purchases from the
date the cash advance, balance transfers or purchase is posted to your
Account, and your Account balance is reduced when STCU receives
your payment or enters a credit. However, a portion of your balance
that is the result of purchases and balance transfers has a different
treatment if you pay that entire portion by at least twenty-three (23)
days after we send your billing statement. An Interest Charge will be
imposed on the portion of purchases and balance transfers included in
the New Balance that remains unpaid within 23 days effective the
opening date of the following billing cycle. Your cash advance
balances have no grace period in which to avoid an Interest Charge.

(a) Annual Fee. For the STCU Premier Rewards World Mastercard
there is an Annual Fee of $49 (after the first year). There is no Annual
Fee for the STCU Rewards World Mastercard.

(b) VARIABLE INTEREST RATE. Your Account has a variable rate
feature and the Periodic Rate and corresponding Annual Percentage
Rate (Interest Rate) may change each month with changes in the
index. The total of the index plus the margin amount that we add is the
Interest Rate. The Interest Rate includes only interest and no other
costs. The Interest Rate is based on the value of an index and can
change monthly effective the first day of the billing cycle. The index is
the highest U.S. Prime Rate published in the Money Rates section of
The Wall Street Journal on the third Tuesday of February, May,
August, and November of each year “Prime Rate”. If the Prime Rate
changes, any new rate will be applied as of the first day of your billing
cycle that begins in March, June, September, and December of each
year. If the APR increases, you will pay a higher Interest Charge and
may pay a higher minimum payment. The Prime Rate is simply a
reference index and is not the lowest interest rate available. If The Wall
Street Journal stops publishing the Prime Rate, we will select a similar
reference rate. STCU adds a margin to the index, based on your
creditworthiness. The margin for purchases, cash advances and
balance transfers will fall within a range based upon your credit
worthiness:

(h) Card Replacement Delivery Fee. You agree to pay a $5.00 fee for
delivery of your replacement card. Rush delivery is an additional
charge.

Margin Range
Non-introductory Purchase APR:
Prime Rate plus a margin of 6.24% to 16.24%.
Non-introductory Balance Transfer APR:
Prime Rate plus a margin of 6.24% to 16.24%.
Cash Advance APR:
© 2015 STCU / Farleigh Wada Witt

(b) Late Fee. You agree to pay a late fee of $25.00 for each minimum
payment not paid by payment due date.
(c) Stop Payment Fee. There is a $25.00 fee for any stop payment
order you order on a convenience check drawn on your account and a
$5.00 fee for any recurring stop payment request.
(d) Returned Payment Fee. A $25.00 fee will be assessed against
your Account when a check submitted for payment on the Account is
returned, regardless of the reason.
(e) Returned Item Fee. A $25.00 fee will be assessed against your
Account for each convenience check returned, regardless of the
reason.
(f) Research and Copying Fees. We may charge you $25.00 per hour
(minimum $5.00) of research required if you request copies of any
items or documents related to your Account. There is a $2.00 charge
for each statement copy you request and $12.00 per copy for any
transaction documents you request. If the request relates to a billing
error and we determine that a billing error was made, any copying
charges will be refunded.
(g) PIN Change/Replacement Fee. A $2.00 charge may be assessed
against your Account for each PIN change/replacement you request.

(i) Foreign Transaction Fees. Purchase and cash advance
transactions made in or with merchants located in foreign countries will
be billed to you in U.S. dollars. The currency conversion rate for
international transactions as established by Mastercard International,
Inc., is a rate selected by Mastercard from the range of rates available
in wholesale currency markets for the applicable central processing
date, which rate may vary from the rate Mastercard itself receives or
the government-mandated rate in effect for the applicable central
processing date. In addition for STCU Rewards Cards, you will be
charged an International Transaction Fee of 2% of the transaction
amount for any card transaction made in or with merchants located in a
foreign country.This fee is waived for our STCU Premier Rewards
World Mastercard cardholders.
(j) ATM Surcharge Fees. If you use an ATM to obtain a cash advance
and the ATM is not operated by us, you may be charged an ATM
surcharge by the ATM operator or an ATM network utilized for such a
transaction. The ATM surcharge may be charged to your account if
you complete the transaction.
10. CONDITIONS OF CARD USE. The use of your Card and Account
are subject to the following conditions:
(a) Authorized Card Use. If you authorize anyone to use your Card in
any manner, that authority will be considered unlimited in amount and
MC1002 031121

manner until you specifically revoke such authority by notifying the
Credit Union immediately. You are responsible for any transactions
made by such persons until you notify us that transactions and access
by that person are no longer authorized and you return all cards issued
to you. If you fail to maintain the security of the Card and the Credit
Union suffers a loss, we may terminate your Card and account
services immediately. You agree to notify us immediately of the loss, or
the theft, or the use without your permission, of any Card or other
credit instrument or device which we supply to you. You may be liable
for any unauthorized use on the Account. You understand and agree
that unauthorized use means the use of the card by someone other
than you.
(b) Ownership of Cards. Any Card or other credit instrument or
device which we supply to you is our property and must be returned to
us, or to any person whom we authorize to act as our agent, or to any
person who is authorized to honor the Card, immediately according to
instructions. The Card may be repossessed at any time in our sole
discretion without demand or notice. You cannot transfer your Card or
Account to another person.
(c) Honoring the Card. Neither we nor merchants authorized to honor
the Card will be responsible for the failure or refusal to honor the Card
or any other credit instrument or device we supply to you. If a merchant
agrees to give you a refund or adjustment, you agree to accept a credit
to your Account in lieu of a cash refund. You may not use the card for
any illegal or unlawful transactions and we may decline to authorize
any transaction that we believe poses an undue risk of illegality or
unlawfulness.
(d) Notices and Payments. All notices will be sent to your address as
shown in the application. You agree to advise us promptly if you
change your mailing address. All payments should be mailed to us at
the remittance address shown on your monthly statements. Payments
received at that address will be credited to your Account as of the date
received.
(e) Personal Identification Number (PIN). You will be required to
select a Personal Identification Number (“PIN”) for use with your Card
in accessing your line of credit at automatic teller machines (“ATM’s)
and for certain purchase transactions, these numbers are issued to
you for your security purposes. These numbers are confidential and
should not be disclosed to third parties. You are responsible for
safekeeping your PlN. You agree not to disclose or otherwise make
available your PlN to anyone not authorized to sign on your Accounts.
To keep your Account secure, please do not write your PlN on your
Card or keep it in the same place as your Card. If you authorize
anyone to use your PIN in any manner that authority will be considered
unlimited in amount and manner until you specifically revoke such
authority by notifying STCU and changing your PIN immediately. You
are responsible for any transactions made by such person until you
notify us that transaction and access by that person are no longer
authorized and your PIN is changed. If you fail to maintain or change
the security of your PIN and STCU suffers a loss, we may terminate
your card and account services immediately.
11. LOSS OR THEFT OF CARD. You agree to notify us immediately,
orally or in writing, of the loss, theft or unauthorized use of your Credit
Card by telephone at (509) 326-1954 in Washington, (208) 619-4000 in
Idaho, or toll-free (800) 858-3750, or by mail at STCU, PO Box 1954,
Spokane, WA 99210-1954 . If you notify us of your lost or stolen credit
card after discovery, you may not be liable for any losses related to
credit transactions. You may not be liable for an unauthorized
transaction, as long as you have exercised reasonable care in
safeguarding the Card from risk of loss or theft, and upon becoming
aware, you promptly report the loss or theft to us, otherwise your
liability for unauthorized credit card transactions shall not exceed $50.
12. DEFAULT. You will be in default under this Agreement if any of the
following occur: (a) Any Minimum Monthly Payment is not made when
due; (b) You become insolvent, bankrupt, or you die; (c) You violate
any part of this Agreement, or any other agreement with us; or (d) if we
reasonably deem ourselves insecure with respect to your Account.
Upon default, we may declare the entire unpaid balance immediately
due and payable, and you agree to pay that amount plus any
applicable fees and costs. If you default on any part of this Agreement,
you agree to pay us all costs to collect your Account, including court
© 2015 STCU / Farleigh Wada Witt

costs and reasonable attorney fees whether or not there is a lawsuit,
and fees on any appeal and fees for bankruptcy proceedings, appeals,
and any post judgment collection services, if applicable. These fee and
costs may be added to your Account balance and will bear interest at
the Interest Rate in effect at that time. We can delay enforcing any
right under this Agreement without losing that right or any other right.
We will notify you in writing of any such action as soon as practical if it
occurs.
13. CREDIT INFORMATION/FINANCIAL STATEMENTS. You
authorize us to release information to others (e.g., credit bureaus,
merchants, and other financial institutions) regarding the status and
history of your Credit Line. You agree to provide us, at any time we
deem necessary, with a current financial statement and/or a new credit
application upon request. We may investigate your credit directly or
through a credit reporting agency.
14. GOVERNING LAW. This Agreement will not take effect until it is
approved by us. This Agreement shall be governed by the laws of the
State of Washington. If any provision of this Agreement is held invalid,
the remaining provisions that are severable shall remain in effect.
15. ACKNOWLEDGMENT AND AMENDMENTS. You understand and
agree to the terms and conditions in this Agreement and the Fair Credit
Billing Notice. You acknowledge that you have received a copy of this
Agreement and Account Disclosures including the Fair Credit Billing
Notice. We reserve the right to amend the terms of this Agreement at
any time as permitted by and subject to any limitations and notice
requirements of applicable law.
16. BILLING ERRORS NOTICE. Your Billing Credit Card Billing
Rights. Keep This Notice for Future Use.
What To Do If You Find A Mistake On Your Statement. If you think
there is an error on your statement, write to us at: STCU, PO Box
1954, Spokane, WA 99210-1954,
In your letter, give us the following information:
Account information: Your name and account number.
Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill,
describe what you believe is wrong and why you believe it is a
mistake.
•
•

You must contact us:
•
•

Within 60 days after the error appeared on your statement.
At least 3 business days before an automated payment is scheduled,
if you want to stop payment on the amount you think is wrong.

You must notify us of any potential errors in writing. You may call us,
but if you do, we are not required to investigate any potential errors
and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter? When we receive
your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that
we received your letter. We will also tell you if we have
already corrected the error.
Within 90 days of receiving your letter, we must either
correct the error or explain to you why we believe the bill is
correct.

While we investigate whether or not there has been an error:
We cannot try to collect the amount in question or report you as
delinquent on that amount.
• The charge in question may remain on your statement, and we may
continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
•

After we finish our investigation, one of two things will happen:
•

If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.
MC1002 031121

•

If we do not believe there was a mistake: You will have to pay the
amount in question, along with applicable interest and fees. We will
send you a statement of the amount you owe and the date payment is
due. We may then report you as delinquent if you do not pay the
amount we think you owe.

If you receive our explanation but still believe your bill is wrong, you
must write to us within 10 days telling us that you still refuse to pay. If
you do so, we cannot report you as delinquent without also reporting
that you are questioning your bill. We must tell you the name of anyone
to whom we reported you as delinquent, and we must let those
organizations know when the matter has been settled between us. If
we do not follow all of the rules above, you do not have to pay the first
$50 of the amount you question even if your bill is correct.

However, if you establish a deposit or share account specifically in
connection with your Credit Card Account, funds deposited in that
account after you establish the Credit Card Account are subject to our
security interest as set forth above in the Credit Card Agreement.
(e) Credit Union Toll-Free Telephone Number - (877) 304-1492. Call
this number for verbal information about the Military Annual
Percentage Rate and your payment obligation.

Your Rights If You Are Dissatisfied With Your Credit Card Purchases.
If you are dissatisfied with the goods or services that you have
purchased with your credit card and you have tried in good faith to
correct the problem with the merchant, you may have the right not to
pay the remaining amount due on the purchase. To use this right, all of
the following must be true:
1.

2.
3.

The purchase must have been made in your home state or
within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note:
Neither of these are necessary if your purchase was based
on an advertisement we mailed to you, or if we own the
company that sold you the goods or services.)
You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at the above address. While we
investigate, the same rules apply to the disputed amount as discussed
above. After we finish our investigation, we will tell you our decision. At
that point, if we think you owe an amount and you do not pay, we may
report you as delinquent.
17. Military Lending Disclosures. The following disclosures are
provided and apply to the borrower who is a Covered Member as
described below.
(a) Borrower Certification of Active Duty. By requesting a Credit
Card each borrower certifies to the Credit Union that borrower: (i) is a
Covered member as a member of the Armed Forces who is currently
serving on active duty (under a call or order not less than 30 days)
Active Guard or Reserve duty; and (ii) borrower is the Covered
Member or is a dependent of the Covered Member. Borrower(s)
authorize the Credit Union to verify their status as a Covered Member
or dependent by obtaining information from the database of the
Department of Defense or from a consumer report obtained from a
consumer reporting agency.
(b) Military Annual Percentage Rate. Federal law provides important
protections to members of the Armed Forces and their dependents
relating to extensions of consumer credit. In general, the cost of
consumer credit to a member of the Armed Forces and his or her
dependent may not exceed an annual percentage rate of 36%. This
rate must include, as applicable to the credit transaction or account:
the costs associated with credit insurance premiums; fees for ancillary
products sold in connection with the credit transaction; any application
fee charged (other than certain application fees for a credit card
account); and any participation fee charged (other than certain
participation fees for a credit card account).
(c) Payment Obligation. Your payment obligation under your Credit
Card Account is set forth in Sec. 1 and 4 above in the Credit Card
Agreement.
(d) Security Interest. The Credit Union's security interest in all your
Credit Union shares or deposits pursuant to the Credit Card
Agreement will not apply to your Credit Card Account. A security
interest in shares or deposits granted in connection with any other
credit card account, loan or line of credit does not secure the Credit
Card Account identified above, in spite of any provision that collateral
securing one loan secures all of your other Credit Union obligations.
© 2015 STCU / Farleigh Wada Witt

MC1002 031121

